No. ________________________
IN THE
Supreme Court of the United States
_________
CHERYL FRITZE,
v.

Petitioner,

NEXSTAR BROADCASTING, INC.,

_________

Respondent.

On Writ of Certiorari to
the United States Court of Appeals
for the Sixth Circuit
_________
PETITION FOR A WRIT OF CERTIORARI
_________
Michael R. Behan*
Gregory A. Przybylo
Behan & Przybylo
4127 Okemos Road, Suite 3
Okemos, Michigan 48864
(517) 347-3500
*Counsel of Record

i
QUESTIONS PRESENTED
I.

Whether Title IX of the Education
Amendments Act of 1972 affords a student
intern the same legal protection against
sexual harassment during an off campus
internship as the student would have the
right to expect while on campus?

II.

What constitutes sufficient reporting to a
‘public body’ for protection under whistle
blower laws?

ii
PARTIES TO THE PROCEEDINGS
The parties to the proceedings are listed in the
caption. Petitioner, Cheryl Fritze, was an editor at
Nexstar Broadcasting, Inc., who claims she as was
fired because Nexstar was not properly
investigating instances of the sexual harassment of
subordinate female employees and interns by their
Nexstar managers. Nexstar Broadcasting, Inc.,
was the defendant and would be the Respondent
were this Court to grant certiorari.
CORPORATE DISCLOSURE STATEMENT
Petitioner, Cheryl Fritze is not a corporation.
Nexstar Broadcasting, Inc., is a corporation.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED .........................

i

PARTIES TO THE PROCEEDINGS ........... ii
CORPORATE DISCLOSURE
STATEMENT ............................................. ii
TABLE OF CONTENTS ............................... iii
TABLE OF AUTHORITIES…………............ v
PETITION FOR WRIT OF CERTIORARI .. 1
OPINIONS BELOW……………………...…… 1
JURISDICTION…………………...…...……… 1
CONSTITUTIONAL PROVISION
INVOLVED…………………………….......... 2
EXISTING SUPREME COURT
PRECEDENT SOUGHT REVIEWED……. 2
INTRODUCTION……………………………… 2
STATEMENT OF THE CASE………..……… 3
REASONS TO ALLOW THE WRIT………… 6
CONCLUSION……………………….………… 9

iv
APPENDIX
Appendix A Opinion in the United States Circuit
Court of Appeals for the Sixth Circuit
(March 2, 2021)
Appendix B Order Denying Rehearing of the
United States Circuit Court of
Appeals for the Sixth Circuit (March
18, 2021)
Appendix C Opinion and Order of the United
States District Court for the Western
District of Michigan (July 13, 2020)

v
TABLE OF AUTHORITIES
STATUTES
28 U.S.C. § 1254 (1).…………………………... 1
20 U.S.C. § 1681-1688
(Title IX of the Education Amendments
Act of 1972)………………………………….. 6-9

1
PETITION FOR WRIT OF CERTIORARI
Petitioner, Cheryl Fritze, respectfully
petitions this Court for a writ of certiorari to review
the decisions of the lower courts and address
whether a student intern should be afforded the
same legal protection against sexual harassment
during an off campus internship as the student
would have the right to expect while on campus.
OPINIONS BELOW
The Sixth Circuit Court of Appeal’s opinion
is unpublished but reproduced in the appendix
hereto at A. The Sixth Circuit Court of Appeal’s
order denying rehearing is unpublished but
reproduced in the appendix hereto at B. The
opinion of the of the Western District of Michigan
is unpublished but reproduced in the appendix
hereto at C.
JURISDICTION
The Sixth Circuit Court of Appeals filed its
Ordering Denying rehearing in this case on March
18, 2021. There were no motions for rehearing or
any other motions altering the timing for filing this
petition. The Supreme Court has jurisdiction under
28 U.S.C. § 1254 (1), to review the Sixth Circuit
Court of Appeal’s decision on a Writ of Certiorari.

2
CONSTITUTIONAL PROVISION INVOLVED
There is no specific Constitution provisions
involved in this case.
EXISTING SUPREME COURT PRECEDENT
SOUGHT TO BE REVIEWED
If accepted, this case appears to present an
issue previously unaddressed by the Court.
INTRODUCTION
In this case, the Sixth Circuit Court of
Appeals described as noble the desire of
“connecting the dots across the country of the other
women who were victims of sexual harassment at
Nexstar stations.”
Despite acknowledging
Petitioner had alleged in this case that “Nexstar
was not properly investigating instances of the
sexual harassment of subordinate female
employees and interns by their Nexstar managers,”
the Sixth Circuit concluded that Petitioner had not
reported a ‘violation of law.’ Petitioner requests
this Court utilize this case as an opportunity to
address whether a student intern should be
afforded the same legal protection against sexual
harassment during an off campus internship as the
student would have the right to expect while on
campus.

3
STATEMENT OF THE CASE
As the Sixth Circuit Court of Appeals
recognized, at the heart of Petitioner’s case is
Petitioner’s allegation that she was fired in
retaliation of her complaints that “Nexstar was not
properly investigating instances of the sexual
harassment of subordinate female employees and
interns by their Nexstar Managers.” Specifically,
Petitioner testified that she and an intern from
Northwestern University reported allegations of
the sexual harassment of the intern (during the
internship) by a direct supervisor of the intern at a
Nexstar owned television affiliate in Lansing,
Michigan. While Petitioner contends that the
allegations constitute sufficient reason for
Northwestern University to end its internship
program with the Nexstar affiliate, Nexstar did not
properly investigate the incident.
Specifically, Petitioner reached out in early
2017 to Nexstar Corporate offices in Dallas to
communicate what she was observing at Nexstar’s
Lansing, Michigan affiliate.
Indeed, the
underlying record as to the Petitioner’s actions is
quite clear and direct regarding her complaint
made directly to Nexstar corporate officials,
summed up by the testimony of Petitioner as
follows:
“I related to her the concerns over sexual
harassment of the young women in our
workplace, the intern (name redacted), of
the retaliation and hostile work

4
environment that was happening with
(name redacted) . . .”
On August 19, 2017 Petitioner emailed the
Nexstar CEO concerning the harassment issues..
The CEO did not respond. Having heard nothing
back from the Nexstar CEO, on December 4, 2017
Petitioner engaged Attorney David Mittleman (an
attorney who was at the time representing
plaintiffs in the Nassar sexual misconduct cases) to
seek Mittlmen’s assistance. Mittleman advised
Petitioner to gather information regarding other
complaints within Nexstar, and specifically told
Petitioner to “reach out to other female Nexstar
employees to see what their experiences have been
relating to Nexstar’s conduct related to sexual
harassment.”
Petitioner took Mittleman’s advice and
began noticing what she believed to be a pattern
existing with some female employees whom left
Nexstar abruptly (many of whom Petitioner found
had used social media as a platform to express
concerns about the culture at Nexstar). Petitioner
was working towards putting together an exposure
of what she believed to be a genuine lack of
recognition at Nexstar regarding how to
appropriately respond to allegations of sexual
harassment perpetrated against female employees
and interns by their Nexstar supervisors.
Described by her immediate Nexstar supervisor as
“a reliable employee whom the younger women in
the newsroom seemed to gravitate to as a
confidant,” the Petitioner had grown suspicious of

5
the lack of response from within Nexstar to claims
of sexual harassment as she became aware of other
similar circumstances wherein Nexstar employees
openly criticized corporate responses to sexual
harassment complaints.
Shortly after being
directly informed of Mittleman’s involvement and
in the midst of Petitioner’s efforts towards
coalescing aggrieved Nexstar subordinates whom
claimed harassment, Nexstar dispatched an
executive from corporate offices whom delivered a
report to the Lansing affiliate clearly stating that
Petitioner should be fired.
Upon being fired by Nexstar, Petitioner
brought suit on the basis of whistle-blower status,
contending her conduct was a protected activity.
Both of the lower courts rejected the Petitioner’s
claim - each focusing the analysis on the principle
that a failure to perform adequate investigations
into sexual harassment in the workplace are not
considered ‘violations of law’. The District Court
opined: “In sum, as a matter of Michigan law,
Plaintiff’s reports of Defendant’s alleged failure to
perform adequate investigations into sexual
harassment in the workplace do not concern
‘violations of law.’” The Sixth Circuit Court of
Appeals echoed this position, holding: “while it no
doubt serves everyone’s interests for a company to
follow its workplace policies, a company’s failures
to do so does not by itself constitute ‘a violation of
the law.’” For slightly different reasons, the lower
courts also opined that the reporting to Mittleman
(a licensed attorney in Michigan and therefore
satisfying a report to a public body under Michigan

6
law) was insufficient alone to warrant protection
under Michigan’s whistle-blower law.
In contrast, Petitioner presented a clear and
very different factual and legal argument for the
lower courts. Namely, the victims of unproperly
investigated instances of sexual harassment
included instances of sexual harassment of college
interns. Neither lower court addressed whether a
distinction exists between a company’s failure to
properly investigate sexual harassment of
employees from a company’s failure to properly
investigate sexual harassment of college interns.
Indeed, while the Petitioner disagrees with the
holdings of the two lower courts in this case that a
company’s failure to properly investigate the
sexual harassment of employees is not a violation
of the law (it should be), the Petitioner steadfastly
asserts that a company’s failure to properly
investigate the sexual harassment of college
interns absolutely is a violation of the law (and this
Court should use this case to mandate).
REASONS FOR ALLOWANCE OF THE WRIT
To enable a student to obtain an education
without harassment, Title IX of the Education
Amendments Act of 1972 states, “No person in the
United States shall, on the basis of sex, be excluded
from participation in, be denied the benefits of, or
be subjected to discrimination under any education
program or activity receiving Federal financial
assistance.”

7
Title IX rights apply to students when
participating in academic activities that are part of
a degree plan. In fact, guidelines from the United
States Department of Education’s Office for Civil
Rights (OCR), specify that education programs and
activities covered by Title IX include “any academic,
extracurricular, research, occupational training or
other education program or activity operated by
the recipient.”
In addition, colleges and
universities are required by the Office for Civil
Rights (OCR) to: “...develop and implement
procedures regarding sexual harassment of
students during educational programs that are not
operated wholly by the school, as in the case of
internships, and to refrain from cooperating with
outside organizations known to discriminate...and
that the University is obligated to provide a prompt,
thorough and equitable investigation of any report
of sex-based discrimination, sexual harassment or
sexual violence. This obligation remains even in
the absence of a formal complaint.”
In this case, Petitioner alleges she was fired
in retaliation of her complaints that “Nexstar was
not properly investigating instances of the sexual
harassment of subordinate female employees and
interns by their Nexstar Managers.” The lower
courts both opined that Petitioner’s reports of
alleged failure to perform adequate investigations
into sexual harassment in the workplace do not
concern ‘violations of law.’ While such holdings
may or may not be accurate with respect to the
lawful requirement to investigate employee claims
of sexual harassment, this simply cannot and

8
should not be the law with regards to college
interns.
Since an internship is considered an offcampus academic activity, Title IX provided the
same safeguard for a student’s rights while at a
Nexstar station (during the student’s internship
with a company) as when the student is on campus.
The Supreme Court could send a clear mandate on
this issue during a period in our nation when
people are paying particular attention to these
issues.
Whether or not there was an internal policy
concerning sexual harassment at Nexstar (and
even whether or not the policy was promulgated by
some legal requirement), the operative and salient
point is that Nexstar not properly responding to
claims about interns being sexually harassed by
Nexstar managers (as Petitioner alleged) should be
considered unlawful under Title IX. Such clarity
would result in swifter action when misconduct is
alleged. Of equal significance, a clear statement on
the issue by this Court would result in an
adjustment of employment policy and practice and
a reduction in sexual harassment of interns.
Finally, this Court should grant the writ to
provide guidance concerning adequate reporting to
a public body for protection as a whistle blower.
The underlying record reflects that Attorney
Mittleman was the person who told Petitioner to
“reach out to other female Nexstar employees to see
what their experiences have been relating to

9
Nexstar’s conduct related to sexual harassment.”
This is a fact completely ignored in the lower court
opinions, one of which lauds the impact of such
pursuits as ‘noble.’ Pursuant to Michigan law, a
licensed attorney and member in good standing
with the State Bar of Michigan is a “public body”
for purposes of whistle blower protection.
Mittleman meets the criteria, and yet for
inconsistent reasons the lower courts did not accept
Petitioner’s actions as rising to the level of legal
protection.
While the gravamen of the case
certainly is the fact that by seeking to complain
about the sexual harassment of interns not being
properly addressed is a complaint about a ‘violation
of law’, the manner she went about seeking to
address what she saw as a ‘violation of law’ should
also be reviewed.
Indeed, if a company’s failure to investigate
the sexual harassment of interns is not ‘a violation
of the law,’ then there is something wrong with the
law. Nevertheless, that is exactly how lower courts
are interpreting the law and why clarity (and a
mandate) is needed.
CONCLUSION
For all the foregoing reasons, Petitioner
respectfully requests that the Supreme Court grant
review of this matter and the important issues
presented herein.

10
Respectfully Submitted,
Michael R. Behan
/s/ __________________
Michael R. Behan
(Member of the Court)
Gregory A. Przybylo
Behan & Przybylo
4127 Okemos Road, Suite 3
Okemos, Michigan 48864
Phone: (517) 347-3500
Counsel for Petitioner
Dated: June 16, 2021

